                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM




        The National Science Foundation Office of Inspector General (NSFIOIG) received an
        anonymous letter alleging that a small-business research company1received awards for research
        efforts that were similar or identical to proposals that had already been funded by other agencies.
         According to the complainant, many proposals contain falsified technical data to increase'the
        chances of receiving awards and convince investors to invest spin-off companies.

        I interviewed the NSF Program officer;! who advised that s h e could not provide any insight into
        the allegations but felt that the company produced good work.

        Our office conducted a search and retrieved abstracts awarded by NSF and other-federal agencies
        to the research company. The search identified a DARPA and NSF final report that contaided
        approximately 70% of overlap.

        The NSF research occurred before the DARPA research. Therefore, it appears that the NSF:
        award supported new research but the DARPA award did not. I contacted the Department of
        Defense @OD) Office of Inspector General to discuss the overlap between the DARPA and NSF
        proposals.. I was informed that DOD as well as National Aeronautics and Space Administration          .

        and United States Army Criminal Investigative Division had received the allegations and have
        open cases involving the company.

        DOD was the victim agency and not NSF. Accordingly, this case is h d .




           Footnote redacted
           Footnote redacted



NSF OIG Form 2 (1 1/02)
